fT

C@OQCKLE

2311 Douglas Street : E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B riefs contact@cocklelegalbriefs.com
1-800-225-6964 Web Site

(402) 342-2831

www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 19-430

ATHENA DIAGNOSTICS, INC., OXFORD
UNIVERSITY INNOVATION LTD., and
MAX-PLANCK-GESELLSCHAFT ZUR

FORDERUNG DER WISSENSCHAFTEN E.V.,
Petitioners,
v.
MAYO COLLABORATIVE SERVICES, LLC, DBA MAYO
MEDICAL LABORATORIES, and MAYO CLINIC,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF AMICUS
CURIAE BIOTECHNOLOGY INNOVATION ORGANIZATION IN SUPPORT OF
PETITIONERS in the above entitled case complies with the typeface requirement of Supreme
Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point
for the footnotes, and this brief contains 4792 words, excluding the parts that are exempted by
Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 3 Ist day of October, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary , \
State of Nebraska . LS ,
My Commission Expires Nov 24, 2020 a

Notary Public Affiant

 

 

38810
